                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM
                                                             .   I




Case Number: A11020014                                                                    Page 1 of 1


                                                                                      I

                We assessed an allegation 1 that research results were not accurately reported in a
         publication? We examined available research records, and concluded that there was insufficient ·
         evidence to support the allegations.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
